No. _________

3Jn tbe

�upreme QCourt of tbe Wniteb �tates
Deshawn Legrier,

Petitioner,

v.

United States of America,
Respondent.
MOTION FOR LEAVE TO PROCEED INFORMA PAUPERIS

The petitioner Deshawn Legrier asks leave to file the attached petition for a
writ of certiorari without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in the
United States Court of Appeals for the Second Circuit. The Court of Appeals
appointed Gwen M. Schoenfeld, Esq. to represent petitioner under the Criminal
Justice Act of 1964, 18 U.S.C. § 3006A.
Dated: November 30, 2020
Respectfully submitted,

Gwen

. Schoenfeld
Counsel of Record

Law Office of Gwen M. Schoenfeld, L.L.C.
147 Ridgewood Avenue
Glen Ridge, New Jersey 07028
law@gwenschoenfeld.com
(917) 363-1888
Counsel for Petitioner Deshawn Legrier

